<html>
<title> - SLOVAKIA'S CHAIRMANSHIP OF THE OSCE: CHALLENGES AND PRIORITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  SLOVAKIA'S CHAIRMANSHIP OF THE OSCE:.
                       PRIORITIES AND CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2019

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 116-1-1]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available via www.csce.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-089PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    

          HOUSE				         SENATE

ALCEE L.HASTINGS, Florida       	ROGER WICKER, Mississippi,
          Chairman			  Co-Chairman
JOE WILSON, South Carolina		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania		JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina		THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin		        TOM UDALL, New Mexico
MARC VEASEY, Texas			SHELDON WHITEHOUSE, Rhode Island                   
          
                  Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE,  to be appointed
                   DEPARTMENT OF DEFENSE, to be appointed
                  DEPARTMENT OF COMMERCE, to be appointed

                                  [ii]
                                  
                  SLOVAKIA'S CHAIRMANSHIP OF THE OSCE:

                       PRIORITIES AND CHALLENGES

                              ----------                              

                             April 3, 2019
                             COMMISSIONERS

                                                                   Page
Hon. Alcee L. Hastings, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Brian Fitzpatrick, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    11

Hon. Joe Wilson, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    13

Hon. Cory Gardner, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    16

Hon. Gwen Moore, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    17

Hon. Roger F. Wicker, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................    19

                                WITNESS

Miroslav Lajcak, Minister of Foreign and European Affairs of the 
  Slovak Republic and OSCE Chairperson-in-Office.................     3

                                APPENDIX

Prepared statement of Hon. Alcee L. Hastings.....................    24

Prepared statement of Hon. Roger F. Wicker.......................    26

Prepared statement of Hon. Benjamin L. Cardin....................    27

Prepared statement of Miroslav Lajcak............................    29

 
                  SLOVAKIA'S CHAIRMANSHIP OF THE OSCE:
                       CHALLENGES AND PRIORITIES

                              ----------                              


                             April 3, 2019

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 3:30 p.m. in Room SVC 201-00, 
Capitol Visitor Center, Washington, DC, Hon. Alcee L. Hastings, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Alcee L. Hastings, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Brian 
Fitzpatrick, Commissioner, Commission on Security and 
Cooperation in Europe; Hon. Joe Wilson, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Cory 
Gardner, Commissioner, Commission on Security and Cooperation 
in Europe; Hon. Gwen Moore, Commissioner, Commission on 
Security and Cooperation in Europe; and Hon. Roger F. Wicker, 
Co-Chairman, Commission on Security and Cooperation in Europe.
    Witness present:  Miroslav Lajcak, Minister of Foreign and 
European Affairs of the Slovak Republic and OSCE Chairperson-
in-Office.

 HON. ALCEE L. HASTINGS, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. [Sounds gavel.] So this hearing will come to 
order. Mr. Chairperson, Mr. Foreign Minister, I warmly welcome 
you to the U.S. Congress. And thank you giving us the 
opportunity to hear your views as the OSCE chairperson in 
office. As you may know, this is the first hearing of the 
Helsinki Commission in the 116th Congress. I intend as 
chairperson--having had this role previously--I intend as 
chairperson to build and maintain active U.S. engagement in the 
OSCE based on principled foreign policy and a belief that we--
and by ``we'' I mean here the United States--must practice what 
we preach. I will also continue the strong parliamentary 
diplomacy that has been the hallmark of this commission since 
it was created. Having previously served as the president of 
the OSCE Parliamentary Assembly, I know how important robust 
engagement from our legislative bodies is to the OSCE.
    To foster this exchange, you and others should expect a 
robust calendar of hearings, like this one, chaired by myself 
and by other commissioners to explore all aspects of our 
partnership. I commend my colleagues from the Helsinki 
Commission, including Co-Chairman Wicker, who you have met, and 
may very well--he and Senator Cardin in different hearings.
    We call the Senate the other body. You know, they have so 
many things going on at a given time. But I commend them for 
their service in leadership roles in the assembly as well as 
your colleague, member of Slovak Parliament, Peter Osusky, who 
successfully headed the short-term election observation mission 
in Armenia last year. I did that one too another time in my 
life. OSCE election observation is and continues to be the gold 
standard. And we were happy to have OSCE observers here for our 
congressional elections last fall.
    It would be a bit unfair if I were to let this moment pass 
and not divert from the written remarks to give you the history 
on how it was that we were able to allow for OSCE 
parliamentarians to come here. I was president of the 
Parliamentary Assembly at the time. And I approached Colin 
Powell, who was secretary of state at the time. And my office 
had been trying to arrange a meeting with the secretary. And 
they didn't know that I had gone to college and graduated 
college with his wife. So I called Alma and told her I needed 
to have a meeting with Colin, and it was done.
    And he went ahead at that time and scheduled for the very 
first time parliamentarians from the OSCE to come to the 
American elections. He told me later that he caught a lot of 
flak as a result of it. I know I did. I got hate mail and 
everything. But it was one of the most pleasant experiences 
that I've had, Mr. Minister, was to host five Russians in Fort 
Lauderdale, Florida during my elections. And I might add, this 
was the election in Florida where we had some substantial 
challenges. And so it was very good to have them there. But I 
just thought you would like that little vignette as to how it 
came that we did have election observers come from the 
Parliamentary Assembly. And I hope they always will.
    If I may, I will also take one minute to commend another of 
your countrymen, President Andrej Kiska. President Kiska was 
honored recently by the German Council of Sinti and Roma for 
his leadership in countering anti-Roma racism. That is really a 
great honor for all of Slovakia. As you may know, the 
commission has long championed efforts to promote the security 
and equality of Roma and supported the development of OSCE 
efforts to address anti-Semitism. And we were the first, I 
might add, to address anti-Semitism. And at that particular 
conference, we were mindful of how important it was that we 
keep the watered-down version of equality at bay. Also in the 
event we also addressed racism and other forms of intolerance, 
even toward black Europeans. Footnote right there as well.
    When I joined the assembly, the majority leader now, Steny 
Hoyer, recruited me to become a member. And in my very, very 
first meeting we were discussing migration. And this was in the 
1990s. So we saw it coming. And someone said to me earlier, We 
didn't fix it. And we now have this ongoing problem. Efforts 
that embrace the entireties of our societies are critical to 
the future of the OSCE. And I hope that your country will 
continue its focus on these issues this year.
    And, Mr. Minister, as you know, the Helsinki Commission's 
engagement with Slovakia dates to 1990, even before 
independence. And I was personally fortunate to have the 
opportunity to visit Slovakia. I congratulate Slovakia on the 
election of your new President Zuzana Caputova. And I hope I 
didn't butcher her name, and if I did you'll ask her to please 
forgive me. But it is wonderful to see your country in this 
leadership role today, chairing the 57-country OSCE. And I keep 
giving you these little vignettes. I swore in Montenegro as the 
56th. And it's no easy task. And we're grateful that Slovakia 
has taken up this challenge.
    As my colleagues, Senators Wicker and Cardin, wrote in the 
Woodrow Wilson Quarterly last fall, the OSCE's mission is as 
important as ever. And I'm very happy to be able to continue 
the Helsinki Commission's tradition of hosting a discussion 
with a country holding the OSCE chairmanship. And I look 
forward to hearing your views on how we can best meet the 
challenges that we face together.
    And for the purposes of our audience that has assembled, 
and those who don't know him, the chairperson Miroslav Lajcak--
I've circulated your full biography, so I won't repeat all of 
it here. But I would like to note a few things in particular. 
Minister Lajcak is a career diplomat with a distinguished 
career serving both his country and the international 
community. In addition to representing Slovakia in numerous 
positions, he served as high commissioner--high representative 
of the international community and special representative of 
the European Union in Bosnia and Herzegovina. He was a key 
figure in the mediation of the post-
conflict crisis in the western Balkans, and negotiated, 
organized, and supervised the referendum on the independence of 
Montenegro. Most recently, he served as president of the United 
Nations General Assembly, where he advocated for dialog, 
strengthening multilateralism, and serving the needs of all 
people. And I join you in that enormous quest for strengthening 
multilateralism. I would that more of our friends throughout 
the world had the same views as you and I in that particular 
respect.
    The floor is yours, sir.
    Mr. Lajcak. Thank you very much, Mr. Chairman. To members 
of the Helsinki Commission, ladies and gentlemen, it's a great 
honor for me to address you today.
    And it's a very special occasion for me to be here as a 
chairperson-in-office of the Organization for Security and 
Cooperation in Europe in such a symbolic year, marking the 30th 
anniversary of the extraordinary events of 1989, when the 
people of Czechoslovakia rose up to peacefully demand their 
liberty. For so many years, our nation had seen the dreams 
deferred, but never lost faith. Those students, artists, 
workers helped usher in the historic wave of freedom that swept 
across Central and Eastern Europe. Our federation, with its 
newly found freedom, even took on chairing the OSCE in 1992, 
before forming our two independent states on January 1st, 1993.
    The democratization road from that point was rocky and I 
experienced it myself as a young diplomat at the time. But I am 
very proud that today Slovakia sits at the table with nations 
which hold democratic values high, whether at the European 
Union, the OSCE or NATO. The road to that table was long. But 
we had a backup. The OSCE and the Helsinki Commission engaged 
in this road from the beginning until today, when we ourselves 
actively pass on our experience and expertise with democratic 
transition. And we are ready to do more, to contribute more.
    That's why we have decided to take on the OSCE chairmanship 
this year, because we believe in multilateralism. We believe in 
nations coming together, building foundations of trust and 
working together to advance security and prosperity. We believe 
in the story of Helsinki. This story ties together 57 states 
spanning three continents, helping to make security, human 
rights, and rule of law a reality for over a billion people. We 
in Slovakia are very proud of this story, and we are very 
excited to stand at the helm of this organization, because 44 
years later we believe the potential to unlock is still 
incredibly vast.
    Local know-how. Presence on the ground. Outstanding 
expertise. We must rediscover the niche value of this 
organization, because there are crises on our doorstep. And 
what is even more disturbing, we are experiencing challenges 
not only outside, but also within. The rising tides of 
isolationism and unilateralism are putting our carefully 
crafted post-war order at risk. The stakes are high. And they 
concern the issues that are at the core of this commission. So 
I am very glad to be here with you, to share an overview of the 
agenda we set for our year, and I'm looking forward to hearing 
your views.
    Let me now summarize our priorities in three main points. 
First, I want to talk about preventing and resolving conflicts 
and mitigating their impact on people. And here, let me right 
away turn to the crisis in and around Ukraine. This commission 
has been steadfast in supporting the aspirations of the 
Ukrainian people for human rights and democracy. And we wish to 
see our biggest neighbor safe and prosperous. And to make this 
a reality, there is no alternative to the Minsk agreements. 
That's why we strongly support existing formats, in particular 
the Normandy format and the Trilateral Contact Group, as well 
as the U.S. engagement through the efforts of Ambassador Kurt 
Volker.
    But we cannot simply wait for progress to happen. There are 
too many people suffering as we speak. So while we focus on 
supporting solutions agreed at the negotiating table, we are 
also working on concrete measures aimed at improving lives of 
people caught up in the midst of the crisis. To put it bluntly, 
retaining focus on the big picture should not blind us to the 
urgent and real needs of the people on the ground. They range 
from repairing the damaged Stanytsia Luhanska bridge, the 
entry-exit point on the line of contact, to humanitarian 
demining. We put together specific proposals of nine 
confidence-building measures. And in February, I had the chance 
to discuss them with Ministers Klimkin and Lavrov separately. 
And I did not hear ``no'' a single time. So I hope we can work 
together to bring these proposed steps forward in the coming 
months.
    These steps are, of course, going to be influenced by the 
results of the Presidential elections in Ukraine and the 
political climate they will bring. So our chairmanship fully 
supports the statement of preliminary findings and conclusions 
issued by the international election observation mission. 
According to the preliminary report, the elections were 
competitive. Voters had a broad choice and turned out in large 
numbers. However, law was often not implemented in good faith. 
Numerous credible indications of misuse of state resources and 
vote-buying undermined the credibility of the process.
    On this example and many more, the role of the OSCE/ODIHR 
election observation is once again proving crucial. It 
contributes to consolidation of democracy in the OSCE region. 
And that's why OSCE participating States must do everything 
possible to allow these missions to work unimpeded. This 
commission has observed virtually every national election in 
Ukraine since 1990. Even though the years have passed, and 
crisis hit, your focus has not dimmed. And I look forward to 
working with the United States in our ongoing efforts with Kyiv 
and Moscow to take steps forward.
    While the crisis in and around Ukraine occupies much of our 
attention, we are equally engaged in other parts of the OSCE 
area. The organization works toward conflict resolution and 
mediation in Transnistria, Georgia, and Nagorno-Karabakh. I 
have recently visited them all. From Moldova, where we have 
seen some real momentum in the Transnistrian settlement process 
which we can build on. Then onto Georgia, where our 
chairmanship fully backs existing formats and remains committed 
to the Geneva international discussions and the Incident 
Prevention and Response Mechanisms.
    And again, here as well, we aim to focus on projects that 
could bring about small, but concrete, results and improvement 
on the situation for people on the ground. And in Nagorno-
Karabakh, while there has been some positive developments we 
need to see a lot more before talking about real progress.
    I will visit Central Asia next week and trips around the 
Western Balkans are on the books, with the aim to address the 
challenges we are facing right on the spot. We believe the OSCE 
is equipped with many tools we need to overcome these 
challenges. And we are dedicating our chairmanship to 
developing and making better use of them. But this also means 
spotting new opportunities, like the inclusion of young people 
in peace processes, or gender mainstreaming and greater 
participation of women in the security field. And here, I'd 
take the opportunity to acknowledge the work of my special 
representative on gender, Ambassador Melanne Verveer.
    So for our second priority, we will focus on what lies 
ahead of us to achieve a safer future for all, in particular 
young people. Our societies are different to what they were 44 
years ago when our organization was founded. Cyberterrorism, 
use of technology in organized crime and trafficking in 
persons--these are issues people could hardly imagine in the 
mist of the cold war. But today, we find ourselves confronted 
with them daily, and they are completely resistant to any 
unilateral solutions. So we need to lead a dialog, we need to 
open up space for emerging themes within the OSCE.
    To this end, our chairmanship has many conferences on our 
agenda, dealing with issues from terrorism to cybersecurity, to 
call attention to new trends and explore potential for 
collaborative impact. Two conferences already took place in 
Bratislava.
    The first one addressed challenges in promoting tolerance 
and non-discrimination, and best practices in combating modern-
day anti-Semitism. And here, I want to thank you very much for 
the United States and this commission's support, especially to 
Senator Cardin and also to the newly appointed U.S. special 
envoy to monitor and combat anti-Semitism, Mr. Elan Carr. We 
were happy to welcome Mr. Carr in Bratislava just a day after 
his appointment, along with my personal representative on 
combating anti-Semitism, Rabbi Andrew Baker.
    Our second conference, just last week, focused on 
preventing and countering terrorism as well as violent 
extremism and radicalization that lead to terrorism. In 
preparation, we took due note of the briefing on 
counterterrorism organized by Congressman Hudson in December 
last year. It was very symbolic that our conference took place 
in the immediate aftermath of the destruction of the last Daesh 
stronghold. And the message from the discussions was very 
clear: This is not a time to get comfortable. Terrorism and 
violent extremism pose as grave a threat as ever. And it 
continues to evolve.
    We need to address the root causes and stay one step ahead. 
That's why we, at the OSCE, need to continue updating and 
adapting our toolbox--so the future does not catch us 
unprepared.
    The role of the Helsinki Commission in bringing new 
developments and trends to light is invaluable. You keep us 
alert to emerging challenges--from human trafficking and 
shrinking space for critical voices from civil society to the 
protection of national minorities. And here I would underline 
our commitment to all mandated human dimension events, namely 
Human Dimension Implementation Meeting and Human Dimension 
Seminar in Warsaw, and three supplementary human dimension 
meetings in Vienna. The first one just took place day before 
yesterday and yesterday.
    Slovakia places high importance on advancing the protection 
of the safety of journalists, especially after last year's 
horrendous murder of investigative journalist Jan Kuciak and 
his fiancee Martina Kusnirova, which left Slovakia in absolute 
shock. Support for the protection of journalists has been 
expressed through last year's Ministerial Council decision--one 
of two adopted in the human dimension after several years. And 
we are working closely with all three independent institutions 
of the organizations, namely Office for Democratic Institutions 
and Human Rights, High Commissioner on National Minorities, and 
Representative on Freedom of the Media.
    But to advance these themes, to advance our security and 
cooperation, we must band together. And it appears the world 
has started to forget the value of multilateralism--this 
fundamental problem-solving and war-preventing tool in 
international relations, the raison d'etre of the OSCE.
    So our third priority is to promote effective 
multilateralism, both within and outside the OSCE. Within 
because the comparative advantage brought by representation is 
so broad that it brings parties with entirely contradicting 
interests to the same room every week is immense. And outside, 
by promoting OSCE's strategic partnerships with other 
international bodies.
    Just last month, I was in New York to brief the United 
Nations Security Council and engage on strengthening ties 
between the OSCE and the United Nations. I have done the same 
at the European Union Foreign Affairs Council, at NATO's North 
Atlantic Council, and Council of Europe's Committee of 
Ministers' Deputies. And promoting partnerships also means 
connecting with nongovernmental actors--think tanks, women's 
groups, youth networks and other civil society partners--
because while these organizations differ in mandate, 
membership, or functions, these differences do not play to our 
disadvantage.
    To the contrary, there is a wide space for complementarity 
of actions, to bring not only enhanced coherence and 
effectiveness but also better use of resources. We must 
remember one thing: While our roles vary in many key aspects, 
the context of our activities remains the same. We are here to 
work for a safer and more democratic region, where every 
individual enjoys security and individual rights. In this 
globalized and interconnected age, working together on 
multilateral platforms is not a luxury we can afford to opt out 
of. It is inevitable if we want to safeguard peace and 
prosperity to our people. And the OSCE is the platform to do 
just that.
    Mr. Chairman, members of the commission, I truly welcome 
this opportunity to engage with you today. And it was very 
useful to meet many congressional delegates at the OSCE 
Parliamentary Assembly gathering in Vienna on 21st February, 
because the representatives chosen directly by people are the 
best link between the organization and those it was created to 
serve. You bring the local knowledge. You bring the outlook 
from outside the meeting halls. You know best what concerns the 
people you represent. In that way, you are key in making the 
OSCE people-responsive.
    So I am very much looking forward to our discussion and I 
thank you for the attention you have given me today.
    Thank you.
    Mr. Hastings. Thank you so very much. It's deeply 
appreciated. You were very clear, concise, and to the point, 
your excellency. And I genuinely appreciate that.
    We've been joined by one of my colleagues, Commissioner 
Brian Fitzpatrick, who spent a considerable portion of his 
career before coming to Congress in Ukraine. So he and I both 
have our Ukrainian experiences.
    I don't know whether you were made aware, but I was the 
lead election observer after the Orange Revolution in Ukraine. 
And the follow on to that was in Armenia when I was the lead 
observer. I wore an orange tie. And The New York Times reported 
that I was bringing the Orange Revolution to Armenia. 
[Laughter.] I mean, little things can--you have to pay 
attention to what it is you do.
    I didn't take the advantage at the beginning because I knew 
others would come, but I'd also like to take one moment to 
recognize Slovakia's Ambassador to the United States, His 
Excellency Ivan Korcok. Wave your hand so we'll know who you 
are. And I don't know that my colleague came here, but he is 
one of my dearest friends in Congress, Congressperson Peter 
Visclosky, who is from the Slovak Caucus in the House of 
Representatives. And Peter never asked me to join that Caucus, 
so I'm going to tell him I'm joining. [Laughter.] It's just 
that simple. If I'm not already--I probably am already a 
member, but I'll make it a point that I do become one. And my 
colleague, Congressperson Jim Banks. I don't know whether Jim 
is here or not, but he's from the Slovak Caucus in the House of 
Representatives.
    And if you don't mind, Brian, I'll start out with the 
questioning and then turn to you. And we're expecting that 
Roger might have an opportunity to stop by. He or Ben, we don't 
know just yet.
    But, Mr. Chairperson, you've had an opportunity to make a 
few visits to OSCE countries. And I remarked to you of the 
chairs in office that I have known--and I have known six 
personally and gotten to know them extremely well when I was 
president of the Parliamentary Assembly of OSCE--I know none 
that have made as many visits as you have in the short time 
that you are in office. But in making these visits this year to 
Ukraine, Armenia, Azerbaijan and Georgia, not to mention the 
conflict areas that have been with us quite some time, did you 
have an opportunity to meet with civil society during your 
visits, or during this visit to the United States?
    Mr. Lajcak. Thank you, Mr. Chairman. And yes, indeed, we 
want to be and trying to be a very active and a useful 
chairmanship. And therefore we are wasting no time. We've only 
got one year if we want to make a difference. And therefore I 
paid my first visit to Ukraine already in mid-January, which 
was followed immediately by visit to Moldova. Later on, I 
visited Azerbaijan, Armenia, and before that, Georgia. These 
were the visits focusing on the crisis area--whether they're 
hot crises, or not conflicts, or protracted conflicts. And I 
dedicated my attention to engaging with policymakers.
    At the same time, engagement with civil society is very 
high on our agenda. Civil society was present in two high-level 
events that we've already convened in Slovakia, the conferences 
I was referring to. I'm going to visit Kazakhstan and 
Kyrgyzstan next week. And the meetings with the civil society 
are part of my schedule, as they will be part of my schedule in 
visiting other three countries of the Central Asia or the 
Western Balkans regions.
    And I'm also planning to organize a special meeting in 
Vienna with the civil societies from the crises regions to hear 
their view. So we intend to engage, and we will do that. And we 
obviously also expect the participation of civil society at the 
ministerial meeting in December.
    Mr. Hastings. That's very much appreciated. We know we're 
having difficulties in certain locales. And I've experienced 
it, as you have. I've also experienced the critical positive 
nature that the NGOs bring to developing societies, with their 
now OSCE mandate and our mission as we go forward. Said to you 
earlier that when I joined this organization we, in my very 
first meeting, had a whole afternoon session on migration. And 
this was in the 1990s.
    And so how OSCE countries address migration is becoming key 
to the preservation of democracy, people, and unity in much of 
the OSCE region, with well-deserved, and well-designed, and 
fairly implemented migration and integration policies also 
having a positive effect on combating intolerance.
    While efforts such as the OSCE High Commission on National 
Minorities work on so-called new minorities and advancing best 
practices, such as those reflected in Ljubljana Guidelines on 
Integration of Diverse Societies, be continued and revisited 
for possible implementation, and what other plans are there 
within ODIHR to address areas that impact human rights, and the 
social and economic integration of migrants, such as protecting 
against employment discrimination and ensuring equal access to 
quality education and housing, in addition to combating hate 
crimes.
    And I regret to say this, that I highlight the fact that 
the first meeting that I attended discussed migration, but 
every meeting thereafter that I attended, well on into 2008, as 
I remember, had equivalent discussions with reference to 
migration. So I leave you with the question, Mr. Minister.
    Mr. Lajcak. Well, you are asking the right question, Mr. 
Chairman. [Laughter.] Migration is obviously a question--or an 
issue that is very high on the agenda not only for the OSCE but 
for other international organizations, and also for national 
governments. And last year was a very important year related to 
migration also in my career, because in July I was applauding 
as the president of the United Nations General Assembly--and I 
had tears in my eyes--when the General Assembly agreed on the 
text of the Global Compact for Safe, Orderly, and Regular 
Migration--the first ever multilateral document trying to 
address the issue of migration from the global perspective and 
trying to manage. And then in November I submitted my 
resignation as the foreign minister of Slovakia when my 
country--my own country--pulled out of signing this document. 
So migration is very close to my heart.
    When I speak about effective multilateralism, it's also 
about better complementarity and synergy with other 
international organizations. So right now we believe the lead 
in addressing the issues of migration belongs to the United 
Nations. After the meeting in Marrakesh, after the adoption of 
the Global Compact, there are meetings discussing the 
implementation of this document. And at the same time, for 
European nations, the European Union is another platform where 
migration is discussed very thoroughly and in great detail.
    So migration is present in discussions within the OSCE, 
because simply it's present in our daily lives. But it's not 
formally among the priorities for our chairmanship, because we 
simply don't want to interfere with the work of other 
international bodies and partners. But obviously, as I said, 
wherever you go, whoever you talk to, this issue is part of the 
debate, because it's part of our daily life. And I'm very sorry 
to say that we are still struggling. We are still reacting. We 
are still somehow going through painful process to find the 
right answers to this global phenomenon.
    Mr. Hastings. Right, and I think you're onto where we will 
resolve it, if at all, and that is with multilateralism. It 
isn't going to come about--I mean, each country can do its own 
thing, as it were, and will, but we are better when we work 
together in that regard.
    We've also been joined by the new ranking member of our 
Helsinki Commission, and that is Congressman Joe Wilson from 
South Carolina. And, Joe, I'm going to ask one more question 
now and then ask Brian and then come back to you, if you don't 
mind.
    Mr. Wilson. Excellent.
    Mr. Hastings. Okay. Real good.
    Close to my concern, in light of the fact that I'm one of 
the prime movers--I sound like a bragging society up here 
sometimes, but I'm proud of the work that I've done in the OSCE 
over the years--but I was one of the prime movers in creating 
the Mediterranean Partners. And just as how when you were 
meeting with NATO you can get them to understand something: We 
did the Mediterranean P'artners in the Parliamentary Assembly 
before they got involved in NATO. So they kind of got the idea 
from us, I like to think--although, they were on their way as 
well.
    At the last ministerial council in Milan, the participating 
states passed a declaration on security and cooperation in the 
Mediterranean. The declaration called for Mediterranean-related 
issues to be clearly reflected throughout the relevant work of 
the OSCE across the three dimensions of comprehensive security, 
among other things. How do you plan to use your chairmanship to 
advance the goals of this declaration? Are there other 
initiatives regarding the Mediterranean Partners and the region 
in general that you wish to pursue? And what are the main 
obstacles you perceive to enhancing cooperation with and among 
the Mediterranean Partners for cooperation?
    And, Mr. Minister, when I was extremely active I spent a 
considerable amount of time in this arena. As a matter of fact, 
I think I'm the only chair of the Parliamentary Assembly that 
visited all six of the Mediterranean Partners on more than one 
occasion. I still consider it critical for us. For example, in 
the area of migration, how could we really ignore Morocco, 
Algeria, Tunisia, Jordan, Egypt, and Israel, and then have 
discussions about migration knowing full well that all of them 
are having either similar problems or perpetuating parts of our 
problems, dependent upon what transpires in terms of their 
people leaving their countries? So toward that end, I leave you 
with the country. And then, Brian, if you would.
    Mr. Lajcak. Thank you very much, Mr. Chairman. And as you 
know very well, the troika model in the OSCE works quite 
efficiently. And there is also a division of labor within the 
troika.
    So last year when Slovakia was still incoming chairmanship, 
we were already responsible for Mediterranean Partnership. So 
we organized a meeting in Malta and I was presiding over the 
meeting in end of October. The meeting was dedicated to 
particular issue of energy, and energy cooperation, energy 
security. But you are very much right, Mr. Chairman, saying 
that, I mean, all three dimensions of the OSCE work are very 
relevant. And when we speak about migration, of course 
Mediterranean Partners are extremely important.
    So we have--I'm very glad that we have this platform. You 
asked, where I see the challenges. Well, I was a bit 
disappointed that we did not have a political representation 
from our six Mediterranean Partners. And obviously we'd--I used 
to be a bureaucrat myself, but you have a different level of 
discussion among politicians and among experts. And this is a 
platform that OSCE is offering to partners. And I ask, what is 
wrong? Why the partners do not show up at the level that the 
OSCE participating States are showing up?
    So this is what we need to explore. And we are working on 
it. Malta is proposing, creating a position of the special 
representative for Mediterranean Partnership, if it will bring 
an added value.
    What we want is to use the platforms for a meaningful 
dialog. We are all busy people. We have so many 
responsibilities. So to go to meetings with little value added 
is just a waste of time. But I believe in this importance of 
this dimension, the Mediterranean dimension of the OSCE work. 
So I really hope that we will be able to use the potential of 
this platform.
    Mr. Hastings. Let me ask you to do, as I'm going to do, and 
that's to ask George [Tsereteli] if he would use his good 
offices--that's our Parliamentary Assembly chair. I spent a lot 
of time--and it was personal time, a lot of it calls and 
exchanges--and I know him extremely well, and I know you do as 
well. So let's pressure him to see if he can pull them together 
for, if nothing more--where are we meeting, Luxembourg? In 
Luxembourg and see if we can get as many of them as possible 
there. All right?
    Thank you.
    Brian.
    Mr. Lajcak. Will do.

 HON. BRIAN FITZPATRICK, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Fitzpatrick. Thank you, Mr. Chairman. Pleasure to be 
with you on the commission here. Sir, congratulations. Thank 
you for being here. And you come from a very beautiful country. 
I spent a little bit of time Bratislava as an FBI agent, and 
it's a great city and a beautiful country. Congratulations on 
all the progress your country has made as well.
    I want to touch on two issues, one specific to Ukraine, 
another more general. The annexation of Crimea, the ongoing 
invasion in eastern Ukraine in the Donbas region. I'm the co-
chair of the Ukrainian Caucus here in Congress. There's been 
some concern regarding military training, lack of support in 
Donbas, and the precedent that we're setting by allowing an 
annexation to occur in clear violation of international law 
with impunity. What role do you think this commission should 
play, and yourself?
    And second, on the broader issue of corruption, the 
majority of my time I spent in Ukraine was standing up the--
they call it the NABU, the National Anti-Corruption Bureau. It 
was designed to fight high-level corruption at higher levels of 
the government, which is clearly a problem in Ukraine and in 
many parts of that region--parts of the world as well. And so 
many of the challenges, when we look at economic instability, 
political instability, human rights violations, they're 
symptomatic of what we consider the root cause issues--one of 
which is corruption. It's a huge problem in many regions of the 
world. What would you like to see our commission do in 
partnership with you to help that, because it's something I'm 
very, very passionate about.
    Mr. Lajcak. Ukraine is, of course, the top of our list of 
priorities as the chairmanship of the OSCE, for obvious 
reasons, because we have a hot conflict. People are suffering. 
People are dying on a daily basis. And we need to do something 
about it. At the same time, Ukraine is our neighbor for 
Slovakia. So we have been very active in assisting Ukraine ever 
since the beginning. And let me remind you that by building the 
gas interconnection, Slovakia allowed for a reverse flow of gas 
from Europe to Ukraine, and thus guaranteeing the energy 
independence--energy security for Ukraine. And this has really 
changed the picture, because Ukraine could no longer be 
blackmailed through the gas negotiations.
    My first visit took me to Ukraine. On 15th of January I 
went to Kyiv. I met with the prime minister, minister of 
foreign affairs, but also minister of defense. And I asked 
them: What can we do together? What can we achieve together? 
This is a particular year. You have presidential elections, you 
have parliamentary elections. But this is not an excuse to do 
nothing because, as I said, the people are suffering. So I 
said, Let us try to identify what we can do together. Next day 
I--and I have to say that--I will come to it. We had a very 
good discussion with our partners.
    Next day I went to the only crossing point in the Luhansk 
area, the bridge, Stanytsia Luhanska. And it's really a very 
sobering experience when you see more than 10,000 crossing this 
bridge daily, waiting in lines to get all the permissions, and 
then walking for two kilometers. Most of these people with 
difficulties to walk. And the bridge is damaged and needs to be 
repaired. And there is the famous lack of political will to 
agree on parameters, even though the project is there, the 
budget is there. So we put the repairing of the Stanytsia 
Luhanska Bridge on top of list of things we want to accomplish.
    I referred to this list. There are nine concrete measures. 
This is No. 1. And I am also using my meeting with the U.S. 
partners to ask for the U.S. support. There are issues like 
protecting civilian infrastructure, humanitarian mine action, 
exchange of detainees, for example, addressing environmental 
challenges. And this is what we want to do so that people see 
that we care, because they don't have this feeling. They are 
very disappointed. They are very frustrated. They think nobody 
really cares about it.
    The issue of annexation of Crimea is the issue that we have 
been addressing very clearly. And I--not agree fully with you 
that Russia got away with impunity, because there was immediate 
reaction from the international community. And sanctions were 
introduced at the level of European Union. And the sanctions 
are still enforced. NATO changed its strategic posture, has 
reinforced the eastern flank as a consequence of this, and 
there are many other measures.
    We've recently--well, issued a number of statements 
reminding ourselves of the fifth anniversary since this illegal 
annexation. I spoke about it in my opening speech to the OSCE 
Permanent Council in January. And we made it very clear that 
this issue will not disappear. But what we need to do is to 
demonstrate to the Ukrainian people that the international 
community is with them, so that they don't feel abandoned.
    And the issue of corruption is--unfortunately, it's a 
plague that is present in the society. And what is very 
important is that we speak about it and that we demand action. 
And your commission has a very high credibility speaking about 
these issues. So I would like to encourage you to raise these 
issues. But let's make it very clear that the corruption cannot 
be addressed by adopting laws, but only by implementing laws.
    So there is a big distance between adoption and 
introduction into real life, and implementation. So let's judge 
our partners and friends, not by number of laws they have 
adopted but by the effectiveness with which they are 
implementing these laws, and with the impact these laws are 
having on the functioning of the society. And this will help 
them. And this will help all of us.
    Mr. Hastings. Thank you. Before going to you, Joe, I'd like 
to introduce Senator Cory Gardner, who has joined us. And then 
Joe and then Cory. I ask, was that a vote that you were 
called----
    Mr. Gardner. It was a quorum call.
    Mr. Hastings. Quorum call. So you all have an hour to get 
to the quorum call. [Laughter.] Go ahead, Joe.

   HON. JOE WILSON, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wilson. Thank you very much, Mr. Chairman. And thank 
you for welcoming me to the commission at the Capitol building. 
I look forward to working together with you. And it's 
particularly significant, Chairperson, to be here with you with 
the Republic of Slovakia. I had the opportunity--one of the 
first things I heard when I got here was the importance of 
NGOs. Well, I know it personally. In 1995, I participated in 
lecturing in Slovakia. I found out the extraordinary history of 
Bratislava, what a beautiful country Slovakia is, the heart of 
Europe. And I then had the opportunity to work with the 
Ambassador Peter Burian very closely. And he came to my home 
state to observe a presidential primary. And as the voters were 
leaving, we were shaking hands and I was introducing the Slovak 
ambassador. And we found out that a high percentage had Slovak 
heritage. So that we have a shared heritage that we greatly 
appreciate. And I wish you well on your service.
    Mr. Lajcak. Thank you very much, sir.
    Mr. Wilson. And over the years, you've been very active in 
Balkan affairs, including as the high representative in Bosnia 
and as a moderator, or mediator during the Montenegrin 
independence referendum.
    Now that you chair the OSCE, what challenges do you see 
still in the region? And what role can the OSCE play in meeting 
the challenges? We're glad to see the progress in relations 
between Greece and North Macedonia, but do you have any 
optimism concerning developments in Bosnia, or in relations 
between Serbia and Kosovo?
    Mr. Lajcak. Thank you. Thank you, sir. And you might know 
that Peter Burian is now the European Union Special 
Representative for Central Asia.
    Mr. Wilson. Hear, hear.
    Mr. Lajcak. And he's doing a great job there. Yes. And we 
are very proud of him.
    Mr. Wilson. Best wishes to him.
    Mr. Lajcak. I'll see him very soon, yes.
    Western Balkans is a region that has made significant 
progress since the end of the tragic Yugoslav War. And we do 
not face, let's say, security challenges--challenges to peace. 
But there are many other challenges. The process of 
transformation of their societies, and I would say 
Europeanization of their societies, is uneven. And of course, 
we have success stories, countries like Croatia that is already 
a member of the European Union and NATO, or we have Albania and 
Montenegro, who are members of NATO, and then we have Bosnia-
Herzegovina that is struggling. Of course, Kosovo's struggling 
with its identity. So we need to keep our eye and pay our 
attention to the region. We need to stay engaged.
    I'm absolutely convinced that the best future for the 
region is a European future. That means the future membership 
in the European Union. And they have this promise. What is 
really important is that this goal is seen as credible, 
realistic, and tangible. That there is no feeling of European 
Union moving the goalposts, because if we want European 
reforms, and they are very painful, they need to see the 
endgame, which is the membership. And the European Union--I'm 
personally a very strong believer in the European project. And 
I've dedicated my professional life to bring my country into 
the European Union.
    The fact is that since several years the European Union has 
been busy with internal issues, migration crisis, before the 
financial crisis, now the Brexit crisis. And we sort of lost 
focus from the region of the western Balkans. And this 
resulted, I would say, in the less-enthusiastic approach to 
reforms. So what I experienced myself is that the region is 
moving in the right direction every time the European Union and 
the U.S. are working hand-in-hand, realizing and understanding 
that it should be the European Union that is the face, because 
it's the European Union that is offering the perspective.
    So we need to keep the European perspective alive and, as I 
said, credible and tangible. What I see as--there are no 
unsolvable problems. The name issue for North Macedonia seemed 
unsolvable for 20-plus years, and yet it was done. And it took 
two leaders with vision, with courage, and they delivered. So 
what I see as most pertinent issues right now is the lack of 
progress in the dialog between Belgrade and Pristina. And I 
believe that we should focus more on it, and demand both 
partners to solve their open issues through this dialog.
    And then the functionality, or rather the lack of 
functionality, of Bosnia and Herzegovina. The good thing, as I 
said, is that these are not the problems that could result in 
conflicts. No, I mean, the region is past that stage. But 
people are losing faith. They are losing confidence in the 
future of their countries. The young generation is leaving 
these countries in huge numbers. And this is very bad. So 
therefore, we need to bring this trust back into these 
countries. We need to engage more with them.
    Mr. Wilson. Thank you very much. And the OSCE plays an 
important role in negotiations to end conflicts, including the 
2008 invasion of Georgia by Russian forces. What is the status 
of OSCE actions in Georgia? Again, a newly democratic country, 
a very dynamic country. I've had the opportunity to visit 
Georgia, and you can actually see the fences that the Russian 
Federation had placed as part of their occupation. And what is 
your role to try to mediate?
    Mr. Lajcak. I visited Georgia as part of my introductory 
visits. And of course, I've been in Georgia many times before, 
but this was first time in my capacity. I also went to visit 
the line of contact with the South Ossetia. And you see how 
much this really divides villages and how much it interferes 
with people's lives.
    And at that time, the crossing points were closed, so I 
used my coming visit to Moscow to urge the Russian side to use 
their influence to have these points reopened. The good thing 
is that the Georgian situation could be defined as protracted 
conflict or frozen conflict, because people are not dying. Not 
on daily basis. So at the same time, it's been more than 10 
years, and we would wish to see, of course a greater progress.
    We have two mechanisms, Geneva International Dialogue and 
the IPRM, which is the incidents prevention and resolving 
mechanisms. So we need to invest into these--into these two 
mechanisms to keep them alive and to address the issues through 
these formats. So this is very important. And we need to be 
patient.
    I obviously met my interlocutor's partners in Jordan 
government, and I appreciated the constructive approach that 
the government has taken adopting a strategy document that 
steps into the future which is trying to engage with citizens 
and being very generous with citizens of these two occupied 
territories, allowing for medical services and other services. 
And I think it's really very important that you keep the dialog 
and keep the contact at the people's level while making sure 
that we are trying to address the political issues at a 
political level.
    Mr. Wilson. Very important, thank you so much.
    And my final question: In many ways the OSCE has been a 
pioneer in cybersecurity issues. In 2013 participating states 
agreed to the first-ever set of cybersecurity confidence-
building measures. How does the chairmanship view the continued 
contributions of these confidence-building measures in a 
climate in which the state-directed cyberattacks appear to be 
increasing in frequency and severity?
    Mr. Lajcak. Cybersecurity is an issue that is influencing 
our daily lives, and we are paying attention to the 
cybersecurity within the OSCE as well. And I referred to a 
number of high-level conferences in my introductory remarks. We 
have already organized two, and the one in June will be 
dedicated to this issue of cybersecurity. And I am already 
trying to present this conference as a very special event 
because if the security in the 20th century was about 
protecting borders, about hard security, security in the 21st 
century is very much defined by the cyberspace.
    And we need to understand this new narrative of security, 
and we want to use this conference in June in Bratislava to 
offer this new perspective on security because, if we want to 
be able to counter the challenges that are coming from the 
cyberspace, we need to be able to define and to understand 
them. So I really hope--and I've already invited also the 
participants from the United States to come and share their 
experience and knowledge about cyberspace and cybersecurity.
    Mr. Wilson. Thank you very much, and I look forward to 
working with the chairman in the future.
    Mr. Hastings. All right, Senator, before you begin, let me 
introduce Commissioner Gwendolyn Moore, who has just joined us. 
She is from Wisconsin.
    All right, Senator.

  HON. CORY GARDNER, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Gardner. Thank you, Mr. Chairman. Thank you for your 
time here today before the commission.
    This morning Secretary General Stoltenberg talked about the 
conflict in Ukraine and the illegal annexation/invasion by 
Russia being the first action of forcefully taking of a country 
since World War II.
    Looking back at the action in Ukraine in 2014, Georgia in 
2008, but particularly Ukraine, what should the U.S. or OSCE 
have done differently in response? Your comment--we must make 
the people of Ukraine feel that we are with them, I think, is 
what you said. What should we have done differently in 2014 and 
after in Ukraine--U.S. and, in your opinion, OSCE?
    Mr. Lajcak. I don't think we have made any mistakes on the 
side of our organizations, but probably we did not react 
properly to 2008 in Georgia. And this was--well, there were 
some measures taken, but we were not really--we as an 
international community, not only OSCE, but also NATO and 
European Union--not really consistent with our reaction. And 
probably--well, if we had the chance to go back in time, 
probably that reaction should have been different back then to 
prevent future actions like this.
    Second point is that--and I feel very strongly about it--
that we really need to use the multilateral system that was 
created after the World War II for a real dialog. It needed 
critical dialog. We need to use these platforms to speak up, 
and to raise the right questions, and to demand answers because 
somehow, more and more, we are meeting in these formal meeting 
rooms to exchange monologues rather than to engage in real 
dialog. And the dialog is happening on the sidelines somehow in 
different formats.
    But I--you know, before 2014 there were--and you know very 
well, Mr. Chairman--there were questions about the need for 
OSCE to continue existing, and there were different agendas--
Corfu process and others, Helsinki plus 40--and then the 
Ukrainian crisis came and all of a sudden everyone realized 
that there is no organization better suited to deal with it 
than the OSCE because you have the political level--the 
Permanent Council--and you have the presence on the ground. And 
OSCE has the primary mandate in dealing with the Ukrainian 
issue. We have 1,500-plus monitors in the Special Monitoring 
Mission, and every other organization--U.N., NATO, European 
Union--is relying on the facts found and delivered by the OSCE 
organization.
    So therefore we really need to use the potential of 
international organizations. And every time we see signals--
because these things do not happen out of the blue--but again, 
way too often--and I am now speaking not as the chairperson but 
as a professional diplomat of 30 years--we way too often tend 
to ignore the signals that something is going wrong and bad 
things are about to happen. And we only start acting after they 
have happened, so the prevention is extremely, extremely 
important. And I really believe that we can do a better job 
here in preventing conflict.
    Mr. Gardner. Thank you. Thank you, Mr. Chairman.
    Mr. Hastings. Senator.
    Ms. Moore?

   HON. GWEN MOORE, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Moore. Thank you so much, Mr. Chairman, and excuse my 
tardiness. Lots of things happening, but I really wanted to be 
here.
    So Mr. Chairman and members of the Helsinki Commission, and 
His Excellency, Mr. Chairperson of the OSCE, it's nice to see 
you again. I met you briefly in Germany, and I'm happy to be 
here today.
    And I tell you that you leaned into one of my concerns, 
that this is probably a really, really critical time in the 
OSCE organization and your chairmanship at this time. And I'm 
thinking--because one of our partners, the Russian Federation, 
certainly has violated all of the Helsinki principles as we 
have so carefully constructed them--these violations are things 
that we need to address, and I am concerned about the 
reputational risk to the OSCE unless we have a plan of action 
to deal with the Russian Federation.
    Also, like--unless you've already done it--to sort of 
describe what your impressions were when you visited Ukraine in 
January. I thought that that was a great act of political 
courage on your part to really lean into one of the primary 
sorts of issues that we have, and I just want to get your 
feedback as to what you think the OSCE can do more to resolve 
the violations of the Russian Federation, and what you think 
the internal status is of the Ukrainians.
    Thank you.
    Mr. Lajcak. Thank you, Madam Commissioner. And obviously as 
the chairperson in office of the OSCE I'm not in a position to 
judge the participating states since I am speaking on behalf of 
the organization, but what I want to say is that OSCE is unique 
in many aspects, and one of the aspects is that OSCE is one of 
the few international bodies where United States and Russian 
Federation are sitting in the same room at the same table. 
There is no--there are not that many others; probably only the 
United Nations, which of course has 193 members. So therefore 
we have to use this fact to look eye-to-eye and to talk about 
issues, and to use this potential and this unique platform. 
This is what makes the OSCE unique.
    And therefore, as I just spoke about, I really believe that 
there is a lot of potential of the OSCE that has not been used 
yet. And I am a strong believer in a dialog, and I am 
absolutely certain that a critical dialog is better than no 
dialog at all. And talking to each other is better than talking 
about each other. And OSCE----
    Ms. Moore. I'll steal that one. [Laughter.]
    Mr. Lajcak. Please, feel free. [Laughs.]
    And OSCE gives us this platform, so we'll have to use it to 
address these issues because it covers the huge territory from 
Vancouver to Vladivostok. There are so many things we can do, 
and we have to.
    Way too often the work of the organization--and OSCE is not 
the only one--is blocked because of some issues not really 
related to the core business of the organizations. We still 
don't have the agreed budget for this year because of unrelated 
issue, but it's already April and this is really limiting our 
activity. So this is one of the examples of how we need to use 
the potential of the organization.
    The second part of your question about Ukraine, for us, the 
focus on people is very much our priority, and we want to show 
that there is a political level of processes that are different 
mechanisms, but there are people, and these people need to see 
that there is someone who cares about them. And being a 
politician myself, I know what lack of political will means. 
That means you don't want to agree; you don't want to reach a 
deal.
    But when I was standing on that bridge, which is, as I 
said, the only crossing point in the Lugansk area--people have 
to travel more than 100 kilometers to get there, to wait in 
line to cross these two kilometers. Try to tell them that there 
is no political will and I wonder what their reaction would be. 
And these people are so--they are beyond frustration, they are 
not even frustrated. They like have given up. They don't trust 
anyone. So therefore we are trying to identify the issues how 
to help them. If we widen the de-mine zone around schools, the 
kindergartens, hospitals, nobody is losing. Everybody is 
winning, for example.
    If you try to introduce the bus line so that the people 
will be able to travel also by bus or by train and not 
necessarily on foot, no one is losing. Everybody is winning. So 
this is what we are trying to do--not losing focus on the big 
picture but understanding that there are real people, and real 
destinies, and real lives beyond that. And if we will be able 
to help to ease the suffering of some of these people during 
our year, I will be very happy.
    Ms. Moore. His Excellency, I just wanted to commend you on 
your focus on youth. I think just--when you talked about 
prevention that is just--the quintessential strategy for 
preventing chaos is to deal with the youth.
    Are there any particular initiatives that you can share 
with us that we ought to amplify through OSCE? I'm thinking 
when we go back for our July meeting we might be prepared to 
come up with some resolutions that address some of your 
priorities in that area.
    Mr. Lajcak. We want to make sure that youth is part of 
everything we do because we don't want to, like, organize one 
event dedicated to youth and then continue the business as 
usual. So we are reaching out to young people, and we want to 
hear their opinion, particularly in the third, the human 
dimension of our activities. We want to make sure that they 
feel that OSCE is also their organization and they have their 
say in everything that OSCE is doing.
    Ms. Moore. Thank you.
    I yield back to you, Mr. Chairman.
    Mr. Hastings. I would like to piggyback on Ms. Moore's 
comment in that regard and to emphasize the fact that in 
cybersecurity, young people know a hell of a lot more about 
what's going on than we do. And if you don't think that's true, 
ask your 8-year-old. Just let he or she pick up your cell phone 
and see what they do with it that you don't know how to do.
    And that's true of all of us in each of the dimensions. So 
the earlier that we turn to some particular program that allows 
for youth to have some advantages that we as adults don't share 
at that moment, the better off we will be, particularly in the 
area of cybersecurity. And I mean that most sincerely.
    You don't need to be introduced to a friend. Senator Roger 
Wicker is here, and you know him extremely well.

 HON. ROGER F. WICKER, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. Well, thank you very much, and I appreciate my 
two House colleagues, who are usually under the 5-minute rule, 
for filibustering long enough to keep this hearing going--
[laughter]--so I could get down here. I'm sorry I'm late, and 
I'm sorry I've missed a good bit of it.
    But Mr. Minister, we are thrilled to see you, and my 
goodness, it's great to be back with my friend of longstanding 
and colleague, Alcee Hastings, and to see you looking so good, 
Alcee.
    Mr. Hastings. Yes, I'm holding on. I'm fighting.
    Mr. Wicker. I'll tell you, it's just wonderful. It's 
wonderful.
    And we've worked on a bipartisan basis, bicameral basis to 
make the strong statement that the Helsinki Commission is 
relevant to so much that is going on these days; that our 
participation in the OSCE Parliamentary Assembly is absolutely 
pertinent to so many issues.
    My colleagues and I were at a joint meeting of Congress 
earlier today with the secretary general of NATO, where there 
is quite a bit of overlap, and I think--I think we're making a 
statement and it continues this afternoon, Mr. Chairman and Ms. 
Moore, in this hearing today from the chair in office. And 
we're delighted at Slovakia's chairmanship this year, and 
thrilled to have our friend, Miroslav Lajcak, with us.
    For more than 40 years the OSCE has worked to bolster 
security, democracy and the rule of law, and respect for human 
rights. Certainly--I don't know if Senator Cardin has been able 
to touch base today, but he and I, along with other members of 
the Helsinki Commission, introduced a resolution in 2017 to 
recognize the importance of the Helsinki Final Act and the 
OSCE, as well as their relevance to American national security.
    And I can tell you, Mr. Chairman, when you ask the generals 
who have jurisdiction in Europe what they think of OSCE, they 
say it's a valuable tool, not only to get the parliaments 
together, but also to provide information, sometimes that we're 
not able to get from any other source in Europe.
    We're a 57-member organization that operates--has to 
operate by consensus, and certainly we've had our challenges. 
Unfortunately, as the secretary general of NATO pointed out 
today, Russia has tried in many ways to abuse its power in OSCE 
to block consensus and use the power of the purse to paralyze 
our mission.
    We hope that improves. I'd like to see the day when there 
is not this conflict within our Parliamentary Assembly with our 
Russian membership. But Russia has attempted to redefine 
European borders--let's just face it, it's a fact--through 
force, so countering the Russian Federation's clear, gross, 
uncorrected violations of all ten OSCE core principles should 
be among the highest priorities for any OSCE chairmanship.
    Mr. Chairman, we appreciate the fact that you visited 
Ukraine in January. I understand there has been some Q&A in 
that regard. I'm also heartened that someone with a deep 
understanding of the Balkans is engaged at this critical time.
    I had the opportunity to lead in July a nine-member, 
bicameral, bipartisan delegation to Bosnia. I believe Ms. Moore 
was with us on that occasion. Our trip included trips of course 
to the federation part but also to Republika Srpska, and it was 
an eye opener, I can tell you.
    I remain deeply concerned about the region as a whole, and 
perhaps we can hear you elaborate on your views as how we might 
strengthen the process of democratic reform, fight against 
corruption, and fight against regional instability. We stopped 
a bloody conflagration there over a decade--over two decades 
ago, but I'm afraid we're frozen right now, and I'm deeply 
concerned and heartbroken that the people of the Balkans are 
not well served some decades after NATO and the United States 
and others came in and helped stabilize the situation.
    Finally, we're honored to have you here today, Mr. 
Minister, on the occasion of the 70th anniversary of the 
founding of NATO and 15 years after Slovakia joined this 
essential transatlantic alliance. It was great to see Secretary 
Pompeo visit Slovakia in February. As he said as he stood 
before Slovakia's Gate of Freedom memorial, remembering the 
more than 400 innocents who lost their lives attempting to flee 
communism: We stand in unity with the people of Slovakia and 
Europe in recommitting to a future that is more prosperous, 
secure and, most of all, free.
    So just to echo the kind words of support that I know have 
already been expressed today, I wish you every success. Thank 
you much for being here, and if there is anything you would 
like to add based on my comments, I would certainly be glad to 
hear them, although I don't wish to prolong the event for those 
who have been here for quite some time.
    Mr. Hastings. Actually, I was going to ask the minister if 
he had a minute more for one or two more questions.
    Mr. Lajcak. Yes, of course. I am at your disposal.
    Mr. Hastings. Please respond.
    Mr. Lajcak. I am not coming here that often, so of course 
I----
    Mr. Wicker. Did I say anything that requires a response or 
elaboration, Mr. Minister?
    Mr. Lajcak. Not an elaboration, but I would like to react 
to a couple of statements you made, sir.
    First, have no doubts about the relevance of this Helsinki 
Commission. I mean, it's--the relevance is huge. It has had--I 
mean, a very strong impact on the transition process in my own 
country. There are many politicians in my country who are 
scared when they hear about Helsinki Commission--[laughs]--and 
rightly so, and you have been very strict in insisting on the 
basic principles of the Helsinki document and respect for the 
rule of law, and human rights, and non-discrimination. So my 
wish for you is to continue doing what you have been doing so 
successfully, because you have been instrumental in bringing 
about changes in our part of the world.
    And OSCE--as I said, it's a very unique organization 
because--and I've seen it, again, during my years in the 
Balkans--is seen as a partner thanks to the presence on the 
ground, living side by side with people, sharing their daily 
concerns, assisting them with practical issues--access to 
water, electricity, basic services. People trust OSCE, and it's 
really about the organization, about the OSCE, how we can turn 
this trust and the knowledge from the ground into political 
action.
    And here, of course, we could wish for a better result, 
because somehow we are not always processing the information in 
the best interest of people we are supposed to serve here. So 
this is the challenge for all of us.
    And for the Western Balkans, I've already elaborated and I 
don't want to repeat myself, because there was a question 
before. I am more optimistic. I really believe that the region 
is irreversibly on a positive trajectory. The process has 
slowed down lately because the attention from European capitals 
and from Brussels has been weakened, and this is an interaction 
of two partners. So very briefly, what I want to see is 
European standards; I mean, insisting on the countries 
bringing--introducing European standards in every aspect of 
their lives and the functioning of their societies. It will not 
come if they don't believe in the European perspective, and 
this is something the European Union should guarantee for them.
    And second, to give young people trust in the future--in 
their future lives in their countries so they don't have to 
think about leaving their countries and looking for opportunity 
somewhere else. And this is an issue that is very much present 
in the region.
    But they are both doable, and there is also an 
understanding in the international organization that this needs 
to be done. I will visit the region--now in my capacity of the 
chairperson in office--all the countries because OSCE is 
present in each and every one of them, to try to address the 
issues on the ground, talking to people, including the young 
generation and civil society actors.
    In Slovakia, civil society is very active, very dynamic, 
very influential, and this has been instrumental in a 
successful transformation of our country. So we know what civil 
society means and therefore we are very much in favor of 
working with civil society in other countries and encouraging 
civil societies to play their role because they are, I would 
say, the critical voice, the watchdogs. They are making sure 
that politicians know that they are under public scrutiny. And 
that's extremely important for every sound democratic society.
    Mr. Hastings. Ms. Moore, you had something you wished to 
add.
    Ms. Moore. Thank you so much, Mr. Chairman, and thank you 
for your indulgence.
    I just wanted to commemorate the second anniversary of the 
death of someone who originates and emanates from my district 
in Milwaukee, Wisconsin, and that's Joseph Stone. Joseph Stone 
was a medic, a contractor for the OSCE who was killed in April 
2017. I just wanted to mention for the record that, while OSCE 
is not a peacekeeping force, it's not an army--that many of our 
members, in their efforts to humanitarian missions, put their 
lives in danger for the common good and for our purposes, and I 
just wanted to remember Joseph Stone.
    And Mr. Chairman, thank you so much for your indulgence. 
And please let the record reflect that we mentioned this.
    Mr. Hastings. It shall without question. And the [OSCE 
Special Monitoring Mission in Ukraine] speaks for itself, and 
hopefully we can enlarge it. It is particularly critical that 
we have on-the-ground forces, and Mr. Stone is thanked--his 
family for his bravery and his contribution with his life to 
better the concerns for all of us.
    Mr. Minister, we didn't get to tolerance and 
discrimination. We didn't get to Central Asia. We didn't get to 
counterterrorism. We didn't get to beneficial ownership 
registries which my country is dealing with at this point. And 
certainly we didn't spend as much time as we would like on 
economic and environmental dimension.
    But the fact of the matter is that we covered a lot of 
ground, and you were very clear. And I deeply appreciate it.
    One thing I would say to my colleagues--and I say it to 
them often--is that if we travel more--meaning members of the 
Helsinki Commission--it helps even if we--with limited time on 
the ground. And Senator Wicker has seen fit that we do that as 
often as we can as a collaborative on the CODELS [congressional 
delegations], but I encourage, even when it is not our CODEL, 
if it's a Helsinki Commission on somebody else's CODEL, and 
they raise the issues that are pertinent to the OSCE, that it 
always is helpful.
    And I'll leave you with this and how important it is that 
you visit. Karimov, before his death--I consider myself to have 
become a friend of his, and the reason for that is--again, a 
little more bragging--I'm the only individual that I know in 
the U.S. Congress that spent a week in Uzbekistan. But in 
addition to having spent a week there, I visited there five 
different times. So I went there with a group whose name will 
be not mentioned, and he treated us royally, he really did. And 
as we were about to leave, one of them asked, You've been so 
nice to us. What could we do to help you? He said, You could do 
like Mr. Hastings. You could come here more, okay?
    So I think if more of us in the American Congress were to 
travel about the world more rather than what I've seen in the 
last decade--us tending to listen to our media who tells us 
that if we travel we're not doing the business of our 
colleagues.
    You know, I wanted to share with you the plight that we all 
have of young people leaving for greener pastures. Senator 
Wicker and Ms. Moore, and myself, and Joe Wilson--not so much 
Cory Gardner who was here earlier--I don't think he has the 
kind of rural areas that Senator Wicker, and Ms. Moore and I, 
and Wilson have. And believe it or not, we're having that exact 
same issue in our respective jurisdictions and constituencies 
where they are seeking greener pastures.
    Somewhere along the line we have to, through 
multilateralism, find green enough pastures for all of these 
children to land in safe spaces.
    Thank you so very much, Mr. Minister. This hearing is 
adjourned.
    Mr. Lajcak. Thank you very much.
    [Whereupon, at 4:54 p.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


              Prepared Statement of Hon. Alcee L. Hastings

    Mr. Chairperson, Mr. Foreign Minister, I warmly welcome you 
to the United States Congress and thank you for giving us the 
opportunity to hear your views as the OSCE Chairperson-in-
Office.
    As you may know, this is the first hearing of the Helsinki 
Commission in the 116th Congress. I intend, as chairperson, to 
build and maintain active U.S. engagement in the OSCE, based on 
principled foreign policy, and a belief that we--and by ``we,'' 
I mean here the United States--must practice what we preach.
    I will also continue the strong parliamentary diplomacy 
that has been a hallmark of this commission since it was 
created. Having previously served as the president of the OSCE 
Parliamentary Assembly, I know how important robust engagement 
from our legislative bodies is to the OSCE. To foster this 
exchange, you and others should expect a robust calendar of 
hearings like this one, chaired by myself and other 
Commissioners to explore all aspects of our partnership.
    I commend my colleagues from the Helsinki Commission, 
including Co-Chairman Wicker, for their service in leadership 
roles in the assembly as well as your colleague, member of the 
Slovak Parliament Peter Osusky, who successfully headed the 
short-term election observation mission in Armenia last year. 
OSCE election observation is the gold standard, and we were 
happy to have OSCE observers here for our congressional 
elections last fall.
    If I may, I will also take one more minute to commend 
another of your countrymen, President Andrej Kiska. President 
Kiska was honored recently by the German Council of Sinti and 
Roma for his leadership in countering anti-Roma racism. That is 
really a great honor for all of Slovakia. As you may know, the 
commission has long championed efforts to promote the security 
and equality of Roma and supported the development of OSCE 
efforts to address anti-Semitism, racism, and other forms of 
intolerance even towards Black Europeans. Efforts that embrace 
the entireties of our societies are critical to the future of 
the OSCE and hope that your country will continue its focus on 
these issues this year.
    Mr. Minister, as you know, the Helsinki Commission's 
engagement with Slovakia dates to 1990, even before 
independence, and I was personally fortunate to have the 
opportunity to visit Slovakia in 2008. I congratulate Slovakia 
on the election of your new president, Zuzana Caputova on 
Saturday.
    It is wonderful to see your country in this leadership role 
today. Chairing the 57-country OSCE is no easy task and we are 
grateful that Slovakia has taken up this challenge. As my 
colleagues, Senators Wicker and Cardin, wrote in the Woodrow 
Wilson Quarterly last fall, the OSCE's mission is as important 
as ever. I am very happy to be able to continue the Helsinki 
Commission's tradition of hosting a discussion with the country 
holding the OSCE chairmanship and I look forward to hearing 
your views on how we can best meet the challenges that we face 
together.

              Introduction of Chairperson Miroslav Lajcak

    Mr. Chairperson, we have circulated your full biography so 
I will not repeat all of it here but I would like to note a few 
things in particular.
    Miroslav Lajcak is a career diplomat with a distinguished 
career serving both his country and the international 
community. In addition to representing Slovakia in numerous 
positions, he served as High Representative of the 
International Community and Special Representative of the 
European Union in Bosnia and Herzegovina. He was a key figure 
in the mediation of the post-conflict crises in the western 
Balkans and negotiated, organized and supervised the referendum 
on the independence of Montenegro. Most recently, he served as 
president of the United Nations General Assembly where he 
advocated for dialogue, strengthening multilateralism, and 
serving the needs of all people.

               Prepared Statement of Hon. Roger L. Wicker

    Thank you, Chairman Hastings. I join you in welcoming His 
Excellency Foreign Minister Miroslav Lajcak before the Helsinki 
Commission. I appreciate having the Foreign Minister's views 
and expertise as the Helsinki Commission works to formulate 
U.S. policy regarding the Organization for Security and 
Cooperation in Europe (OSCE).
    Mr. Chairperson, welcome.
    For more than 40 years, the OSCE has worked to bolster 
security, democracy, the rule of law, and respect for human 
rights. In April 2017, Senator Cardin and I--along with every 
other senator then serving on the Helsinki Commission--
introduced a resolution urging President Trump to recognize the 
importance of the Helsinki Final Act and the OSCE as well as 
their relevance to American national security. Peace and 
prosperity in the OSCE region rests on respect for human rights 
and the preservation of fundamental freedoms, democratic 
principles, and economic liberty. At a time when civil society 
is under threat in so many countries, we look to you, as the 
Chair, to ensure that people's voices are heard in the OSCE.
    Unfortunately, as a 57-member organization that operates by 
consensus, the OSCE is not without internal challenges. Russia 
has tried to use its vote to block consensus and the power of 
the purse, paralyzing the OSCE's mission. Russia has also 
attempted to redefine European borders through force. 
Countering the Russian Federation's clear, gross, and 
uncorrected violations of all 10 core OSCE principles should be 
among the highest priorities of any OSCE chairmanship.
    Mr. Chairperson, we appreciate that you visited Ukraine in 
January and have underscored the importance of addressing the 
war there and its humanitarian consequences.
    I also am heartened that someone with your deep expertise 
on the Balkans is engaged at this critical time. I had the 
opportunity in July to lead a nine-member, bicameral, 
bipartisan delegation to Bosnia and the Federal Republic of 
Srpska. Frankly, I remain deeply concerned about the region as 
a whole and would like to hear your views on how we might 
strengthen the process of democratic reform, the fight against 
corruption, and regional stability.
    Finally, we are especially honored to have you here on the 
occasion of the 70th anniversary of the founding of NATO and 15 
years after Slovakia joined this essential transatlantic 
alliance. It was great to see Secretary Pompeo visiting 
Slovakia in February. As he said when he stood before 
Slovakia's Gate of Freedom Memorial--remembering the more than 
400 innocents who lost their lives attempting to flee 
communism--he said we stand ``in unity with the people of 
Slovakia in Europe in recommitting to a future that is more 
prosperous, secure, and most of all, free.''
    I wish you every success, and I look forward to your 
insights and counsel on how we can make a better world for 
future generations throughout the OSCE region. Thank you.

             Prepared Statement of Hon. Benjamin L. Cardin

    Mr. Hastings, thank you for convening today's Helsinki 
Commission hearing with the OSCE Chairperson-in-Office, 
Miroslav Lajcak, thus continuing our tradition of inviting the 
OSCE's most senior political representative to be heard in 
Washington.
    Minister Lajcak, we are honored to have you here and 
welcome your leadership of the world's largest regional 
security organization.
    The OSCE's main purpose is fostering peace in the Euro-
Atlantic and Eurasian spaces through a comprehensive approach 
to security. We believe this institution continues to play an 
important role in working towards this goal.
    However, our common security is under continued challenge 
by Russia's contempt for the international order. Trust is 
damaged when one country blatantly violates international law. 
The OSCE's crisis response capacity is critical in responding 
to security concerns arising when OSCE commitments are 
blatantly ignored, such as Russia's aggression in Ukraine and 
Georgia.
    Russia's invasion of Ukraine has been at the center of the 
OSCE's focus for four years now. I welcome your strong 
commitment to Ukraine's sovereignty and territorial integrity 
and look forward to hearing your views on this singular 
challenge within the OSCE region and especially your assessment 
of efforts to reach a solution that would restore Ukraine's 
full control over its own territory.
    Human rights and democracy are the beating heart of the 
Helsinki process and it is critical that we preserve the 
ability of civil society to participate fully in its meetings 
and work. While I am deeply concerned about the erosion of 
democratic norms in some parts of the OSCE, it is important 
that we support, amplify, and replicate positive developments 
where we can.
    In Armenia, the nonviolent popular mobilization, free and 
fair elections, and political transition in the past year are 
causes for optimism in the post-Soviet space. The Armenian 
experience speaks to the critical role that civil society and 
respect for fundamental freedoms play in generating peaceful 
and popular democratic change. This historic evolution in 
Armenia richly deserves the support of the United States and 
international community, including organizations such as the 
OSCE. We are also interested in significant opportunities for 
positive human rights developments in Uzbekistan.
    I commend Slovakia for convening a conference on anti-
Semitism in February and appreciate the opportunity to share a 
message with that meeting in my role as OSCE Parliamentary 
Assembly Special Representative on Anti-Semitism, Racism, and 
Intolerance.
    I understand the Supplementary Human Dimension Meeting that 
took place this week in Vienna focused on religious intolerance 
generally, and that future events will focus on Roma. Given the 
recent tragedy in New Zealand targeting Muslims, and a 
continuing escalation in hate crimes and discrimination towards 
refugees and migrants, it is important that we also act 
following these events. It is one reason I called upon OSCE 
Parliamentarians to join me this year in reporting on efforts 
they and their governments have engaged to in to stem the tide 
of hate in their countries. As we have seen, unchecked hate 
knows no bounds. I would be honored if we could work together 
on an OSCE Anti-Discrimination and Inclusion Action Plan that 
highlights government efforts and builds coalitions across all 
our communities to address hate, as no community should have to 
go it alone in this fight.
    Mr. Foreign Minister, it has been 30 years since the Velvet 
Revolution. I made my first trip with the Helsinki Commission 
in 1987, going with then Chairman Congressman Steny Hoyer to 
the historic Vienna Follow-up Meeting and then to German 
Democratic Republic. The changes we have seen in the last 30 
years--in democracy, prosperity, and security--were truly 
inconceivable in 1987. The goal today is to preserve and expand 
those achievements and I look forward to working with you 
towards that goal.

                 Prepared Statement of Miroslav Lajcak

    Mr. Chair, Members of the Helsinki Commission, 
Excellencies, ladies and gentlemen,
    It's a great honour for me to address you today. It is a 
very special occasion for me to be here as a Chairperson-in-
Office of the OSCE in such a symbolic year, marking the 30th 
anniversary of the extraordinary events of 1989. When the 
people of Czechoslovakia rose up to peacefully demand their 
liberty. For so many years, our nation had seen the dreams 
deferred. But never lost faith. Those students, artists, 
workers helped usher in the historic wave of freedom that swept 
across Central and Eastern Europe. Our Federation, with its 
newly found freedom, even took on chairing the OSCE in 1992, 
before forming our two independent nations on January 1, 1993.
    The democratization road from that point was rocky. I 
experienced it myself, as a young diplomat at the time. But I 
am very proud that today, Slovakia sits at the table with 
nations holding democratic values high, whether at the European 
Union, the OSCE or NATO. The road to that table was long. But 
we had a back up.
    The OSCE and the Helsinki Commission engaged on this road 
from the beginning--until today, when we ourselves actively 
pass on our experience and expertise with democratic 
transition. And we are ready to do more, to contribute more. 
That's why we have decided to take on the OSCE Chairmanship 
this year.
    Because we believe in multilateralism. We believe in 
nations coming together, building foundations of trust and 
working together to advance security and prosperity. We believe 
in the story of Helsinki. This story ties together 57 states 
spanning 3 continents, helping to make security, human rights 
and rule of law a reality for over a billion people. We in 
Slovakia are very proud of this story, and we are very excited 
to stand at the helm of this Organization.
    Because 44 years later, we believe the potential to unlock 
is still incredibly vast. Local know-how. Presence on the 
ground. Outstanding expertize. We must rediscover the niche 
value of this Organization. Because there are crises on our 
doorstep. And what is even more disturbing, we are experiencing 
challenges not only outside, but also within. The rising tides 
of isolationism and unilateralism are putting at risk our 
carefully crafted post-war order. The stakes are high. And they 
concern the issues that are at the core of this Commission.
    So I am very glad to be here with you, to share an overview 
of the agenda we set for our year, and I am looking forward to 
hearing your views. Let me now summarize our priorities in 
three main points.

I. First, I want to talk about preventing and resolving 
conflicts--and mitigating their impact on people. 

    And here, let me right away turn to the crisis in and 
around Ukraine. This Commission has been steadfast in 
supporting the aspirations of the Ukrainian people for human 
rights and democracy. We wish to see our biggest neighbor safe 
and prosperous.
    And to come to that, there is no alternative to the Minsk 
agreements. That is why we strongly support existing formats, 
in particular the Normandy format and the Trilateral Contact 
Group, as well as the US engagement through the channels of 
Kurt Volker.
    But we need to be realistic. We cannot simply wait for 
progress to happen. There are too many people suffering, as we 
speak. So while we focus on supporting solutions agreed at the 
negotiating table, we are working on concrete measures aimed at 
improving lives of people caught up in the midst of crises.
    To put it bluntly--retaining focus on the big picture 
should not blind us to perhaps less grand, yet urgent and real 
needs of real people. They range from repairing the damaged 
Stanytsia Luhanska bridge--the entry-exit point on the line of 
contact; to humanitarian demining. In February, I had the 
chance to discuss specific proposals of confidence building 
measures with Ministers Klimkin and Lavrov separately. And I 
did not hear ``no'' a single time. I hope we can work together 
to bring these proposed steps forward in the coming months.
    These are of course going to be defined by the results of 
the presidential elections in Ukraine and the political climate 
they will bring. The role of OSCE/ODIHR election observation is 
once again proving crucial. It contributes to consolidation of 
democracy in the OSCE region. That is why OSCE participating 
States must do everything possible, to allow these missions to 
work unimpeded. This Commission has observed virtually every 
national election in Ukraine since 1990.
    Even though the years have passed and crisis hit, your 
focus has not dimmed. And I look forward to working with the 
United States in our ongoing efforts with Kyiv and Moscow, to 
take steps forward. While the crisis in and around Ukraine 
occupies much of our attention, we are equally engaged in other 
parts of the OSCE area.
    The organization works towards conflict resolution and 
mediation in Transdniestria, Georgia and Nagorno-Karabakh. I 
have recently visited them all. From Moldova, where we have 
seen some real momentum in the Transnistrian settlement process 
we can build on. Then onto Georgia, where our Chairmanship 
fully backs existing formats and remains committed to the 
Geneva International Discussions and the Incident Prevention 
and Response Mechanisms. And again, here as well, we aim to 
focus on projects that could bring about small--but concrete--
results and an improvement of the situation for people on the 
ground. And in Nagorno-Karabakh--while there has been some 
positive developments, we need to see a lot more before talking 
about real progress. I will visit Central Asia next week and 
trips around the Western Balkans are on the books--to address 
the challenges we are facing, right on the spot.
    We believe the OSCE is equipped with many tools we need to 
overcome these challenges. And we dedicate our Chairmanship to 
develop and make better use of them. But this also means 
spotting new opportunities, like the inclusion of young people 
in peace processes, or gender mainstreaming and greater 
participation of women in the security field. Here, I would 
take the opportunity to acknowledge your support to the work of 
my Special Representative on Gender, Ambassador Melanne 
Verveer.

II. So for our second priority, we will focus on what lies 
ahead of us to achieve a safer future for all, in particular 
young people. 

    Our societies are different to what they were 44 years ago 
when our organization was founded. Cyber-terrorism, use of 
technology in organized crime and trafficking in persons--these 
are issues people could hardly imagine in the mist of the Cold 
War. But today, we find ourselves confronted with them daily, 
and they are completely resistant to any unilateral solutions. 
So we need to lead the dialogue, open up space for emerging 
themes within the OSCE. To this end, our Chairmanship hosts 
conferences dealing with issues from terrorism to cyber 
security--to call attention to new trends and explore potential 
for collaborative impact. Two conferences already took place in 
Bratislava.
    The first one addressed challenges in promoting tolerance 
and non-discrimination, and best practices in combating modern-
day antisemitism. And here, I want to thank you very much for 
the US and this Commission's support, especially to you Senator 
Cardin, and also to the newly appointed US Special Envoy to 
Monitor and Combat Anti-Semitism, Mr. Elan Carr. We were happy 
to welcome Mr. Carr in Bratislava just a day after his 
appointment, along with my Personal Representative on Combating 
Anti-Semitism Rabbi Andrew Baker.
    Our second conference, just last week, focused on 
preventing and countering terrorism as well as violent 
extremism and radicalisation that lead to terrorism. In 
preparation, we took due note of the briefing on 
counterterrorism organized by Congressman Hudson in December 
last year. It was very symbolic that our Conference took place 
in the immediate aftermath of the destruction of the last Daesh 
stronghold. And, the message from the discussions was very 
clear: this is not a time to get comfortable. Terrorism and 
violent extremism pose as grave a threat as ever. And, it 
continues to evolve.
    We need to address the root causes and stay one step ahead. 
That is why we, at the OSCE, need to continue updating and 
adapting our toolbox--so the future doesn't catch us 
unprepared. The role of the Helsinki Commission in bringing new 
developments and trends to light is invaluable.
    You keep us alert to emerging challenges--from human 
trafficking and shrinking space for critical voices from civil 
society to protection of national minorities. And here, I would 
underline our commitment to all mandated Human Dimension 
events.
    Slovakia places high importance on advancing the protection 
of the safety of journalists, especially after last year's 
horrendous murder of investigative journalist Jan Kuciak and 
his fiancee Martina Kusnirova--which left Slovakia in an 
absolute shock. Support for the protection of journalists has 
been expressed through last year's Ministerial Council 
decision--one of two in the Human Dimension after several 
years.
    But to advance these themes, to advance our security and 
cooperation, we must band together. And it appears the world 
has started to forget the value of multilateralism--this 
fundamental problem-solving and war-preventing tool in 
international relations, the raison d'etre of the OSCE.

III. So our third priority is to promote effective 
multilateralism. Within and outside the OSCE.

    Within--because the comparative advantage brought by the 
representation so broad--that it brings parties with entirely 
contradicting interests to the same room every week--is 
immense. And Outside--by promoting OSCE's strategic 
partnerships with other international bodies.
    Just last month, I was in New York to brief the United 
Nations Security Council and engage on strengthening ties 
between the OSCE and the UN. I have done the same at the 
European Union's Foreign Affairs Council, NATO's North Atlantic 
Council and Council of Europe's Committee of Ministers' 
Deputies. And promoting partnerships also means connecting with 
non-governmental actors. Think tanks, women's groups, youth 
networks and other civil society partners. Because while these 
organizations differ in mandate, membership or functions--it 
does not play to our disadvantage.
    To the contrary--there is a wide space for complementarity 
of actions--to bring not only enhanced coherence and 
effectiveness, but also better use of resources. Because while 
our roles vary in many key aspects, the context of our 
activities remains the same.
    We are here to work for safer and democratic region, where 
every individual enjoys security and individual rights. In this 
globalized and inter-connected age, working together on 
multilateral platforms is not a luxury we can afford to opt out 
of. It's inevitable, if we want to safeguard peace and 
prosperity to our people. And the OSCE is the perfect platform 
to do just that.

    Mr Chairman, Excellencies,
    I truly welcome this opportunity to engage with you today. 
And it was very good to meet many congressional delegates at 
the Parliamentary Assembly meeting in Vienna on 21 February. 
Because the representatives chosen directly by people are the 
best link between the Organization and those it was created to 
serve. You bring the local knowledge. You bring the outlook 
from outside the meeting halls. You know best what concerns the 
people you represent. In that way, you are key in making the 
OSCE people-
responsive.
    So I am very much looking forward to our discussion, and I 
thank you for the attention you have given me today.

                           [all]
                           

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
